p

APPENDIX “B”
DISTRICT COURT RULING(S)

t

SERVlcB
K
TWENTY FOURTH JUDICIAL DISTRICT COURT
PARISH OF JEFFERSON
STATE OF LOUISIANA
NO. 12-890

DIVISION “E”
STATE OF LOUISIANA
VERSUS

RECEIVED

DARRELL TILLERY

0Ct 1 2 2020

FILED:
DEPUTY CLERK

WFPSO

ORDER
This matter comes before the court on petitioner’s UNIFORM APPLICATION FOR
POST-CONVICTION RELIEF. MEMORANDUM IN SUPPORT. PETITIONER FOR
WRIT OF HABEAS CORPUS AD TESTIFICANDUM. MOTION FOR EVIDENTIARY
HEARING AND APPOINTMENT OF COUNSEL. MOTION TO COMPEL ANSWERALL STAMPED AS FILED AUGUST 28. 2020.
On November 20, 2013, petitioner was convicted of count #1, #3, and #4, LSA-R.S.
14:42, relative to aggravated rape victim under 13, and count #2, LSA-R.S. 14:43.1, sexual
battery victim under 13. The court sentenced him on counts #1, #3, and #4 to life imprisonment
at hard labor, consecutively, and on count #2 to 10 years, to run concurrently with count #1. He
also pled guilty to the multiple bill. The court sentenced him in accordance with his plea
agreement as a second felony offender to 10 years imprisonment at hard labor, to run
concurrently with his sentence in case # 14-746. His conviction was affirmed on appeal. State v.
Tillery, 14-KA-429 (La. Sapp. 5 Cir. 12/16/14), 167 So.3d 15; writ denied, 2015-KO-0106 (La.
11/6/15), 180 so.3d 306.
On November 29, 2016, the court denied petitioner’s previously filed an application for
post-conviction relief. Petitioner sought appellate writ, which the Fifth Circuit Court of Appeal
denied. Tillery v. Vannoy, 17-KH-18 (La. App. 5 Cir. 1/13/17). The Louisiana Supreme Court
also denied writ, and in doing so, issued the following per curiam:

i

PER CURIAM:
* 1 Denied. Relator fails to show that he received ineffective assistance of counsel under
the standard of Strickland v. Washington, 466 U.S. 668, 104 S.Ct. 2052, 80 L.Ed.2d 674
(1984). As to his remaining claims, they are repetitive and/or
unsupported. See La.C.Cr.P. arts. 930.4 and 930.2.
Relator has now fully litigated his application for post-conviction relief in state court.
Similar to federal habeas relief, see 28 U.S.C. § 2244, Louisiana post-conviction
procedure envisions the filing of a successive application only under the narrow
circumstances provided in La.C.Cr.P. art. 930.4 and within the limitations period as set
out in La.C.Cr.P. art. 930.8. Notably, the legislature in 2013 La. Acts 251 amended that
article to make the procedural bars against successive filings mandatory. Relator's claims
have now been fully litigated in accord with La.C.Cr.P. art. 930.6, and this denial is final.
Hereafter, unless he can show that one of the narrow exceptions authorizing the filing of
a successive application applies, relator has exhausted his right to state collateral review.
The district court is ordered to record a minute entry consistent with this per curiam.
State exrel. Tillery v. State, 2017-0226 (La. 9/28/18), 253 So. 3d 139
The petitioner now files an application for post-conviction relief (APCR). He claims
that his non-unanimous conviction is in violation of his right for equal protection under the 14lh
Amendment, in light of the most recent decision by the United States Supreme Court, Ramos v.
Louisiana, 590 U.S.___, 140 S.Ct. 1390 (2020).
Under the clear language of LSA-C.Cr.P. art. 930.8, the petitioner had two years from the
date that the conviction and sentence became final to file an application for post-conviction
relief, unless he proves an exception to the time limitations of LSA-C.Cr.P. art. 930.8 (A).
Petitioner’s case has long been final.
Petitioner does not provide an exception to timeliness. The Ramos decision only affects
cases not yet final, and thus is not retroactive. The United States Supreme Court specifically

CM
CM

<=>

8
8
25

o
O

d

3 ■#£%<?
'-s'

•>>

io?

^0

jON A. GEGKN'I IFIM f;R

10/05/2020 11:04:22 CERTIFIED TRUE COPY - Pg:1 of 2 - Jefferson Parish Clerk of Court - ID:20101429

*'

t
noted, “the Court’s decision today will invalidate some non-unanimous convictions where the
issue is preserved and the case is still on direct review.” Id. At 1419, emphasis added. The
petitioner clearly does not fall within this category.
This APCR is untimely, and thus, is procedurally barred from review. Under LSAC.Cr.P. art. 928, an application may be dismissed without an answer if the application fails to
allege a claim which, if established, would entitle petitioner to relief. In this case, the petitioner
has not alleged a valid claim reviewable in accordance with LSA-C.Cr.P. art. 930.3 or 930.4.
Accordingly,
IT IS ORDERED BY THE COURT that petitioner’s Application for Post Conviction
Relief and accompanying pleadings are hereby DENIED.
Gretna, Louisiana this 05

day of October

2020 .

JUDGE
PfcEASE SERVE:
Petitioner: Darrell Tillery, DOC # 293814, Louisiana State Penitentiary, Angola, LA 70712
Thomas Butler, District Attorney’s Office, Appellate Division, 200 Derbigny St., Gretna, LA
70053

I
i

m
t..

10/05/2020 11:04:22 CERTIFIED TRUE COPY - Pg:2 of 2 - Jefferson Parish Clerk of Court - ID:20101429
HON. FRANK A. BRINDISI - DIVISION: E - 10/05/2020 10:56:23 - CASE:12-00890 -1D:22216/145100

■•b

-V.

APPENDIX “D
5th COURT OF APPEAL:
RULING

DARRELL TILLERY

NO. 20-KH-385

VERSUS

FIFTH CIRCUIT

DARREL VANNOY, WARDEN

COURT OF APPEAL
STATE OF LOUISIANA

December 04, 2020
Susan Buchholz
First Deputy Clerk

^CONFIDENTIAL**
LSA-RS 46:1844(W)
ATTORNEYS OF RECORD
ONLY

IN RE DARRELL TILLERY
APPLYING FOR SUPERVISORY WRIT FROM THE TWENTY-FOURTH JUDICIAL DISTRICT COURT,
PARISH OF JEFFERSON, STATE OF LOUISIANA, DIRECTED TO THE HONORABLE FRANK A.
BRINDISI, DIVISION "E", NUMBER 12-890

Panel composed of Judges Robert A. Chaisson,
Stephen J. Windhorst, and Hans J. Liljeberg

WRIT DENIED
Relator, Darrell Tillery, seeks review of the district court’s denial of his
application for post-conviction relief on October 5, 2020.
On November 20, 2013, following a jury trial, relator was found guilty of
three counts of aggravated rape of a juvenile (counts one, three, and four) and one
count of sexual battery of a juvenile (count two). With regard to count one,
defendant was found guilty by a verdict of ten to two, and on count four, he was
found guilty by a verdict of eleven to one. The other two verdicts were unanimous.
See State v. Tillery, 14-429 (La. App. 5 Cir. 12/16/14), 167 So.3d 15, 25, n.9, writ
denied, 15-106 (La. 11/6/15), 180 So.3d306.
On August 28, 2020, relator filed a second application for post-conviction
relief in the district court, challenging the constitutionality of his non-unanimous
jury verdicts in light of Ramos v. Louisiana, 590 U.S. --, 140 S.Ct. 1390, 206
L.Ed.2d 583 (2020). On October 5, 2020, the district court denied relator’s
application as untimely under La. C.Cr.P. art. 930.8, noting that relator failed to
prove an exception to the time bar as Ramos only affects cases not yet final.
Relator now seek review of this denial, asserting that he has met the exception of
the time bar in La. C.Cr.P. art. 930.8(A)(2) in light of the Ramos decision, which
he asserts must be applied retroactively.
Ramos v. Louisiana, supra, holds that the Sixth Amendment right to a jury
trial-as incorporated against the states by the Fourteenth Amendment-requires a
unanimous verdict to convict a defendant of a serious offense. However, at this
time, the holding in Ramos is limited only to those defendants whose matters were

20-KH-385

still pending on direct review at the time the Supreme Court’s decision in Ramos
was rendered, and not to those defendants, like relator, whose matters are currently
on collateral review.1 As such, we find no error in the district court’s
determination that relator’s application for post-conviction relief was untimely and
that relator failed to prove an exception to the time bar based on the decision
rendered in Ramos, supra.
Accordingly, this writ application is denied.
Gretna, Louisiana, this 4th day of December, 2020.
RAC
SJW
HJL

1
We note that the issue of the retroactive application of Ramos v. Louisiana, supra, to cases on collateral review is
currently pending in the United States Supreme Court. See Edwards v. Vannoy, - U.S. 140 S.Ct. 2737. 206
L.Ed.2d 917 (2020).

2

-4

•SUSAN M. CHEHARDY

CURTIS B. PURSELL

CHIEF JUDGE

CLERK OF COURT

fSP

FREDERICKA H. WICKER
JUDE G. GRAVOIS
MARC E. JOHNSON
ROBERT A. CHAISSON
STEPHEN J. WINDHORST
HANS J. UUEBERG
JOHN J. MOLAISON, JR.

MARY E. LEGNON
CHIEF DEPUTY CLERK

SUSAN BUCHH0L2
FIRST DEPUTY CLERK

FIFTH CIRCUIT
101 DERBIGNY STREET (70053)

JUDGES

MEUSSA C. LEDET
DIRECTOR OF CENTRAL STAFF

POST OFFICE BOX 489
GRETNA, LOUISIANA 70054
www.fifthcircuit.org

(504) 376-1400
(S04) 376-1498 FAX

NOTICE OF DISPOSITION CERTIFICATE OF DELIVERY
I CERTIFY THAT A COPY OF THE DISPOSITION IN THE FOREGOING MATTER HAS BEEN
TRANSMITTED IN ACCORDANCE WITH UNIFORM RULES - COURT OF APPEAL, RULE 4-6 THIS
DAY 12/04/2020 TO THE TRIAL JUDGE, THE TRIAL COURT CLERK OF COURT, AND AT LEAST ONE OF
THE COUNSEL OF RECORD FOR EACH PARTY, AND TO EACH PARTY NOT REPRESENTED BY
COUNSEL, AS LISTED BELOW:

20-KH-385
E-NOTIFIED
24th Judicial District Court (Clerk)
Honorable Frank A. Brindisi (DISTRICT JUDGE)
Grant L. Willis (Respondent)
Thomas J. Butler (Respondent)
MAILED
Honorable Jeffrey M. Landry (Respondent)
Attorney General
Louisiana Department of Justice
1885 North 3rd Street
6th Floor, Livingston Building
Baton Rouge, LA 70802

Darrel! Tillery #293814 (Relator)
Louisiana State Penitentiary
Angola, LA 70712

CURTIS B. PURSELL
CLERK OF COURT

v.>

APPENDIX “F

99

LOUISIANA SUPREME COURT:
RULING

WEST LAW
Tillery v. Vannoy
Supreme Court of Louisiana.

March 23, 2021

— So. 3d —

2021 WL 1112987 (Mem)

2021-00185 (La. 3/23/21)

(Approx. 1 /

2021 WL III2987

Supreme Court of Louisiana.

Darrell TILLERY
v.

Darrel VANNOY, Warden
No. 2021-KH-00185
03/23/2021
Applying For Supervisory Writ, 24th Judicial District Court Number(s) 12-890, Court of
Appeal, Fifth Circuit, Number(s) 20-KH-385.
Opinion
*1 Writ application denied.

Weimer, C.J., would grant and assigns reasons.
Griffin, J., would grant for the reasons assigned by Chief Justice Weimer.
*1 WEIMER, C.J., would grant to address the retroactivity of Ramos v. Louisiana,----U.S.

, 140 S.Ct. 1390, 206 L.Ed. 2d 583 (2020).

All Citations
— So.3d —, 2021 WL 1112987 (Mem), 2021-00185 (La. 3/23/21)

End of
Document

WestlawNext. ©2021 Thomson Reuters

1 of 1

©2021 Thomson Reuters. No claim to original U.S. Government Works.

Additional material
from this filing is
available in the
Clerk's Office.

